   May 21, 2002




Supply Inventory
Management
Accountability and Control of
Materiel at the Corpus Christi
Army Depot
(D-2002-091)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Inspector General of the
  Department of Defense Home Page at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to or Hotline@dodig.osd.mil;
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASRS                  Automated Storage and Retrieval System
AMCOM                 Aviation and Missile Command
IOC                   Industrial Operations Command
MSFS                  Maintenance Shop Floor System
PCN                   Program Control Number
         Office of the Inspector General of the Department of Defense
Report No. D-2002-091                                                  May 21, 2002
(Project No. D2000LH-0285.002)

                Accountability and Control of Materiel at the
                       Corpus Christi Army Depot

                                 Executive Summary

Introduction. This is the third in a series of reports being issued by the Inspector
General of the Department of Defense that discusses accountability and control of
materiel at DoD maintenance depots. The report discusses conditions identified in prior
audits concerning the accountability and control of materiel but remain uncorrected.
The DoD FY 2002 budget for depot maintenance was about $14.4 billion. The Army
portion of that amount was about $1.7 billion for operation of five maintenance depots.
A significant portion of the Army’s depot maintenance budget was for materiel used in
repair and overhaul processes at the depot maintenance facilities.

Depot maintenance facilities need effective inventory control systems to ensure that an
adequate supply of materiel, parts, and supplies are on hand to maintain efficient levels
of operation and to meet the demands of customers. An effective system is also
important to disclose defective and obsolete goods; prevent loss through damage,
pilferage, or waste; and ensure existence of physical quantities and values shown on
inventory records. Through inventory control, materiel not needed for requirements at
a depot can be made available to inventory managers for redistribution for other known
requirements.

Results. Materiel stored in locations within the Automated Storage and Retrieval
System exceeded requirements at the Corpus Christi Army Depot, Texas. Also, large
amounts of materiel stored in work centers on the maintenance shop floor were not
recorded on accountable records. As a result, the audit identified about $83 million of
$432 million of inventory on hand in the Automated Storage and Retrieval System
records that was above the approved 60-day level, and therefore, excess to
requirements and invisible to the wholesale supply system. Further, the audit identified
about $7 million of materiel stored in work centers on the maintenance shop floor
excess to any known requirements. The full extent of materiel stored in work centers
on the maintenance shop floor was unknown. Additionally, inventory records at the
Corpus Christi Army Depot had count errors in about 9.8 percent of the storage
locations. Large and inaccurate inventories made materiel difficult to manage. Also,
materiel stored for long periods could become lost, obsolete, stolen, or unserviceable;
and proper management decisions over the utilization of materiel can be hampered. See
Appendix A for details on our review of the management control program as it relates
to management of materiel at the Corpus Christi Army Depot.

Summary of Recommendations. We recommend that the Commander, Aviation and
Missile Command direct the Corpus Christi Army Depot to comply with current
guidance regarding the storage of maintenance materiel at the depot and the preparation
and submission of reports for management review. We also recommend that the
Corpus Christi Army Depot price the materiel stored in the Automated Storage and
Retrieval System, inventory materiel stored in work centers and record on accountable
records, and perform annual physical inventories and quarterly reviews of materiel.
Additionally, we recommend that the Corpus Christi Army Depot review projects at the
required completion stages, perform a monthly reconciliation between the Automated
Storage and Retrieval System and Maintenance Shop Floor System files, and prepare
and submit reports regarding management of materiel to management for review.

Management Comments. We provided a draft of this report on February 25, 2002.
No written response to the draft report was received. We request that the Commander,
Aviation and Missile Command and the Commander, Corpus Christi Army Depot
provide comments on this report by July 19, 2002.




                                         ii
Table of Contents

Executive Summary                                               i

Introduction
     Background                                                1
     Objectives                                                3

Finding
     Management of Materiel at the Corpus Christi Army Depot   4

Appendixes
     A. Audit Process
         Scope and Methodology                                 13
         Management Control Program Review                     15
         Prior Coverage                                        16
     B. Report Distribution                                    17
Background
    This report is the third in a series resulting from our audit of accountability and
    control of materiel at DoD maintenance depots. The DoD FY 2002 budget for
    depot maintenance is about $14.4 billion. The Army portion of that amount is
    about $1.7 billion for operation of five maintenance depots. A significant
    portion of the Army’s depot maintenance budget is for purchasing materiel used
    in the repair and overhaul processes at depot maintenance facilities.

    Corpus Christi Army Depot. Corpus Christi Army Depot (Corpus Christi),
    located at Corpus Christi, Texas, is the largest helicopter repair and overhaul
    facility in the world. Corpus Christi’s mission includes overhaul, repair,
    modification, retrofit, testing, and modernizing helicopters, engines, and
    components for the Services and foreign military sales.

    Materiel Classification. Materiel used at maintenance depots is generally
    classified as consumable or reparable. Consumables are supplies consumed
    while in use, such as repair parts and fabrication materiel. Once in use,
    consumables lose a separate identity. Reparables are secondary items, or
    subassemblies, that can be restored to a serviceable condition through
    depot-level maintenance and normally exchanged on a one-for-one basis. For
    each reparable issued to maintenance for repair or overhaul, a serviceable
    reparable should be returned to the supply system.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel and goods in process by accounting and physical methods.
    Accounting control involves proper recording and reporting of inventories.
    Physical control involves the physical movement of inventories and consists of
    proper safeguards for receiving, storing, handling, and issuing materiel. The
    purpose of a physical inventory is to validate the storage location and determine
    the condition and quantity of items by physically inspecting and counting items.

    Materiel Control. Materiel control is important because materiel not needed
    for the current requirements at a depot can be made available for redistribution
    of other known requirements. Each maintenance facility is required to record
    on-hand materiel balances on shop stock records. Shop stocks are
    demand-supported repair parts or consumable items that are stored within the
    maintenance activity to support workloads. For accounting purposes, shop
    stocks are considered consumed; however, depots are required to maintain shop
    stock records to show on-hand inventory balances.

    Management Oversight. On October 1, 1995, the Army Industrial Operations
    Command (IOC) became fully established as a permanent Army Materiel
    Command major subordinate command and the office of primary responsibility
    for maintenance depots within the Army. On October 1, 1999, the IOC
    transferred full command and control of Corpus Christi to the Aviation and
    Missile Command (AMCOM), headquartered at Redstone Arsenal, Alabama.



                                         1
The IOC issued a policy memorandum, “Management and Operations Policy for
Automated Storage and Retrieval System (ASRS) and Standard Depot System
(SDS) Maintenance at Industrial Operations Command Maintenance Depots,
Revision 3,” (IOC ASRS policy memorandum) August 1, 1996. ASRS is a
mechanized storage system used for storing shop stock.

The IOC ASRS policy memorandum includes the following inventory
management requirements:

      •   All materiel stored in ASRS, at a minimum, shall be identified by the
          owning cost center; national stock number/part number; program
          control number (PCN); quantity; acquisition source code;
          nomenclature; and condition code.

      •   Items stored in mission stocks must represent a bona fide potential
          requirement for performance of a maintenance or fabrication
          requirement.

      •   Availability of materiel from previously completed fabrication orders
          must be determined before placing new requisitions.

      •   Reclaimed materiel, materiel removed from assets in maintenance,
          and work in process may be stored until reused on the maintenance
          program. Excess reclaimed materiel will be turned in or transferred
          to a valid funded program.

      •   Prior to closing a depot maintenance program, all associated
          remaining repair parts, spares, and materiel on hand shall be
          transferred to an ongoing program or a program that shall begin
          within 180 days or turned in to the installation supply support activity
          within 15 days.

          - The gaining program must be funded, open, and valid.

          - The transferred materiel must be a bona fide potential requirement
            of the gaining program.

      •   An annual physical inventory of all materiel stored in ASRS must be
          performed.

      •   A reconciliation between the ASRS and Maintenance Shop Floor
          System (MSFS) files must be performed, at a minimum monthly, to
          determine if files are accurate.




                                   2
     Personnel at the Army Materiel Command advised us that because the IOC
     ASRS policy memorandum regarding the management of ASRS was not
     canceled when full command and control of Corpus Christi was transferred to
     AMCOM in October 1999, the policy memorandum would remain in effect until
     AMCOM issued its own policy.

     Program Control Number. Corpus Christi assigns each job a PCN for
     scheduling work and tracking costs. The PCN remains in existence for the life
     of the job. Materiel is ordered for a specific PCN and is identified with that
     PCN until either consumed, transferred to another PCN, or disposed of. Once
     the PCN is closed, all of the associated remaining repair parts, spares, and
     materiel that are on hand should be transferred to an ongoing program or a
     program that will begin within 180 days or turned in to the installation supply
     support activity within 15 days.

     Automatic Storage and Retrieval System. ASRS is a mechanized storage
     system within maintenance directorates and is used for storing maintenance shop
     stock and end-item subassemblies that are used for maintenance and fabrication
     programs. Corpus Christi uses the ASRS to store and account for depot
     maintenance materiel. ASRS maintains on-hand inventory balances and
     locations of the inventory. Materiel stored in ASRS is considered consumed for
     accountability purposes but should be identified to specific projects. At Corpus
     Christi, materiel is stored by PCN and stock numbers within ASRS and is only
     issued at the request of maintenance shops. Materiel stored in ASRS should be
     stored for short periods, as cited in the IOC ASRS policy memorandum. As it
     is used, materiel should be dropped from the ASRS records.

     Maintenance Shop Floor System. Materiel issued to maintenance activities
     from the supply support activity is also controlled by the MSFS, which is an
     on-line computer system that shop personnel use to track maintenance activities.
     The MSFS interfaces offline with the ASRS through nightly batch processing.
     The MSFS records the issue and receipt of materiel and shows on-hand balances
     by stock number of the materiel stored in ASRS. The MSFS also shows the
     dollar value of materiel stored in ASRS. The on-hand quantities of materiel
     stored in the ASRS should agree with the balances of the MSFS. The MSFS
     does not interact with the depot supply support activity systems and stock
     accounts because the MSFS is not linked to depot supply and accounting
     records. Therefore, quantities that are on hand are not reported in the depot
     financial statements.


Objectives
     The overall objective was to evaluate the effectiveness of policies and
     procedures used to account for and control materiel used by Corpus Christi.
     We also evaluated the management control program as it related to the
     objective. See Appendix A for a discussion of the audit scope and
     methodology, review of the management control program, and prior coverage
     related to the audit objectives.

                                         3
           Management of Materiel at the Corpus
           Christi Army Depot
           Materiel stored in the ASRS exceeded requirements at Corpus Christi.
           Also, a large amount of materiel stored in work centers on the
           maintenance shop floor was not recorded on any accountable records.
           The conditions occurred because Corpus Christi did not comply with the
           Army guidance regarding management of materiel, did not perform
           annual physical inventories, and did not perform quarterly evaluations of
           materiel to determine if materiel was required. Excess materiel also
           accumulated because maintenance shop personnel were reluctant to turn
           in unused materiel when jobs were completed. Additionally, the lack of
           oversight by AMCOM contributed to excess materiel on hand. As a
           result, Corpus Christi could have as much as $83 million of materiel
           stored in ASRS and more than $7 million of materiel stored on
           maintenance shop floors excess to known requirements. Additionally,
           inventory records at Corpus Christi had count errors in about 9.8 percent
           of the storage locations. Large and inaccurate inventories made materiel
           difficult to manage. Also, materiel stored for long periods lose their
           visibility and can become lost, obsolete, stolen, or unserviceable; and
           proper management decisions over utilization of materiel can be
           hampered.

Depot Maintenance Materiel Guidance
    DoD Regulation 4140.1-R, “DoD Materiel Management Regulation,” May 20,
    1998, provides policies for DoD Components regarding management of
    materiel. The regulation states that the DoD Component that has physical
    custody of materiel is responsible to care and safeguard the materiel and shall
    maintain quantitative balance records by individual storage location. Also, the
    DoD Components shall conduct annual physical inventories and shall take
    appropriate actions to ensure that the on-hand quantity and total item property
    records agree.

    Army Regulation 750-2, “Army Materiel Maintenance Wholesale Operations,”
    October 27, 1989, states that procurement of repair parts necessary to support
    maintenance of programmed reparable assets will be based on approved depot
    maintenance requirements. The regulation does not address stockage of
    expendable supplies and repair parts at maintenance depots. The Army issued
    interim guidance to Army Regulation 750-2 on November 28, 1994, that
    requires depots to limit maintenance and requisitioning of fabrication materiel at
    a 60-day level. That guidance remains in effect.




                                        4
    Army Regulation 735-5, “Policies and Procedures for Property Accountability,”
    January 31, 1998, states that any property acquired by the Army from whatever
    source, whether paid for or not, must be accounted for on formal records from
    the time of acquisition until the ultimate consumption or disposal of the property
    occurs. Also, the Army Regulation requires that all of the on-hand property
    shall be inventoried annually.

    Army Regulation 710-2, “Inventory Management Supply Below the Wholesale
    Level,” October 31, 1997, states that support maintenance facilities are
    authorized a limited amount of expendable supplies and repair parts required for
    efficient operations. Each shop stock item must be reviewed, at a minimum,
    quarterly.

    The IOC ASRS policy memorandum states the following:

       •   The purpose of ASRS is for short-term storage of maintenance materiel,
           which includes work in process.

       •   Items are not to be stored for long periods of time in ASRS without
           known requirements.

       •   Projects will be reviewed at the 50-percent, 75-percent, and
           90-percent completion stages to determine if a need exists for materiel
           still in storage.

       •   Materiel shall not be stored in ASRS in an overhead account.

       •   Depots using the Standard Depot System shall review all materiel that
           has a date of last activity of more than 6 months old and verify on a
           monthly basis the PCN, national stock number, and condition codes.


Storage of Maintenance Materiel
    Materiel stored in the ASRS exceeded requirements at Corpus Christi. Also, a
    large amount of materiel stored in work centers on the maintenance shop floor
    was not recorded on accountable records. As a result, Corpus Christi had about
    $90 million of materiel that may be excess to requirements.

    Materiel Stored in the Automated Storage and Retrieval System. On
    October 10, 2001, inventory records at Corpus Christi showed that 39,225 lines
    of materiel valued at about $432 million were stored in 20,724 storage locations
    in ASRS. Materiel stored in ASRS is primarily work-in-process items and
    bench stocks. Of the $432 million of materiel stored in ASRS, about
    $36 million of materiel was stored in overhead PCNs, about $22 million was
    potential excess materiel, about $4 million was dormant materiel (materiel that
    had no use for more than 180 days), and about $1 million of materiel was stored
    in closed PCNs. Some of the materiel had been stored in ASRS for long
    periods.


                                        5
The $432 million of materiel stored in ASRS was understated because many of
the items stored in ASRS did not have extended dollar values. We were unable
to determine the true value of the materiel stored without extended dollar values.

        Unpriced Materiel. The overall value of the materiel stored in ASRS
was understated. For example, our stratified sample of 375 storage locations
from a universe of 20,724 storage locations selected for review included
160 lines of materiel without associated cost data. We projected that about
5,547 (26.8 percent) of the 20,724 storage locations had materiel stored in
ASRS without associated dollar values. The dollar value for most of the
unpriced materiel was available; however, personnel who were responsible for
receipt of materiel have not assigned an accurate dollar value to all of the
materiel stored in ASRS. We requested that production personnel provide cost
data for the unpriced items. Production personnel provided cost data for 63 of
the line items and advised audit personnel that cost data were not available for
the remaining 97 line items of materiel. We later requested that the Customer
Assistance Special Projects Section provide us with the cost data. We were
provided the requested cost data for 96 of the 97 line items of materiel.

        Length of Time Materiel Was Stored in ASRS. Inventory records at
Corpus Christi showed that some materiel had been stored in ASRS for long
periods, even though IOC ASRS policy memorandum states that the purpose of
ASRS is for short-term storage and that materiel is not to be stored in ASRS for
long periods without a bona fide requirement. Further, Army Regulation 750-2
requires depots to limit materiel at a 60-day level. Inventory records showed
that about $83 million of the about $432 million of materiel stored in ASRS had
been stored in excess of 180 days. Some of the materiel had been inactive since
September 1997. We could not determine when the materiel was first stored in
ASRS because the system showed only the date of last activity. We believe that
the $83 million of materiel that had been stored for more than 180 days could be
excess to known requirements because some of the materiel had been stored in
ASRS for as long as 4 years. The materiel that has been inactive for extended
periods should be either turned in to the installation supply activity within
15 days of being identified as excess, transferred to an ongoing program if
needed, or turned in as excess materiel. Corpus Christi personnel had not
performed reviews of materiel with a date of last activity more than 6-months
old to determine if the materiel was required.

Maintenance Shop Floor Work Centers. Large amounts of materiel stored in
work centers on the maintenance shop floor were not recorded on accountable
records, even though Army Regulation 735-5 states that any property acquired
by the Army must be accounted for on formal records from the time of
acquisition until either the ultimate consumption or disposal of the property
occurs. For example, we judgmentally selected 153 locations within 3 work
centers on the maintenance shop floor for physical inventory. We inventoried
about $7 million of materiel that was not recorded on the MSFS records, and
therefore not visible to other potential Corpus Christi users. The materiel
should be considered excess because it was not identified with any ongoing
project or to satisfy any known requirement. Corpus Christi personnel did not
comply with the Army guidance regarding the storage of materiel and did not

                                    6
    perform evaluations of the materiel to determine if a requirement for the
    materiel existed. We believe that the $7 million of potential excess materiel
    inventoried within the 3 work centers is a small amount of the unrecorded
    materiel because the inventory was conducted in only 3 of the 86 work centers.

    Continuing Problem. Excessive accumulation of materiel has been an ongoing
    problem within the Army and was reported by the Inspector General of the
    Department of Defense and the Army Audit Agency. Inspector General of the
    Department of Defense Report No. 94-117, “Accountability and Control of
    Materiel at Army Depots,” June 3, 1994, states that Army depot maintenance
    facilities had excessive materiel on hand and did not adequately account for and
    control materiel. The report estimated that the depot maintenance facilities had
    about $45.5 million of excess materiel on hand and that inventory records had
    error rates of about 14 percent. Army Audit Agency Report No. NE 89-6,
    “Depot Automated Storage and Retrieval System,” March 24, 1989, states that
    materiel stored in ASRS was not adequately accounted for. The Army Audit
    Agency estimated that the Army-wide amount of unaccounted for materiel could
    be as much as $120 million.

Accumulating Excessive Maintenance Materiel
    Excessive materiel stockage accumulated at Corpus Christi because personnel
    did not comply with the Army guidance regarding management of materiel, did
    not perform annual inventories, and did not perform quarterly evaluations of
    materiel to determine if materiel was required. Excess materiel also
    accumulated because shop personnel were reluctant to turn in unused materiel
    when jobs were completed. Additionally, the lack of oversight by AMCOM
    contributed to excess materiel on hand.

    Purchasing Materiel. Corpus Christi purchased required materiel at the
    beginning of projects and stored that materiel for the life of the project.
    Records were not available to show that Corpus Christi personnel reviewed
    projects at the 50-percent, 75-percent, and 90-percent completion stages to
    determine if a need for materiel in storage existed as required by the IOC ASRS
    policy memorandum. Also, records were not available to show the availability
    of materiel from previously completed projects before placing new requisitions.
    Further, records were not available to show how Corpus Christi accounted for
    materiel that was reclaimed from repaired components or removed from assets
    in maintenance. Purchasing materiel more in line with consumption would
    reduce the excess inventories, especially because program requirements can
    change.

    Performing Physical Inventories. Corpus Christi did not correct the errors in
    ASRS records regarding quantities and values of on-hand inventories because
    annual physical inventories of materiel stored in ASRS were not performed.
    DoD Regulation 4140.1-R, Army Regulation 735-5, and the IOC ASRS policy
    memorandum require that annual physical inventories be performed. DoD
    Regulation 4140.1-R states that appropriate actions shall be taken to ensure that
    the on-hand quantity and total item property records agree. Annual physical
    inventories of materiel stored in ASRS were not being performed. According to

                                        7
Corpus Christi management officials, the annual physical inventories were not
performed because the depot did not have sufficient personnel to perform the
inventories. We were advised that an annual physical inventory was started in
1993; however, the inventory was not completed because of a lack of personnel
and other priorities. Although resources may not be available to perform annual
wall-to-wall inventories, physical inventories are still required to be performed
to care for and safeguard materiel. Alternatives to wall-to-wall inventories are
annual random statistical samples of inventory or some type of cyclic inventory.
Reducing the size of the inventory would reduce the effort involved in
performing required physical inventories.

Quarterly Reviews. Corpus Christi personnel were not performing quarterly
reviews on materiel stored in the ASRS as required by Army Regulation 710-2.
Army Regulation 710-2 requires that shop stock items be reviewed quarterly, at
a minimum, to determine if requirements still exist. Failure to perform
quarterly reviews resulted in accumulation of the excessive materiel that was on
hand. Corpus Christi personnel advised us that quarterly reviews were not
performed because of a shortage of personnel.

Turn–in of Materiel. Maintenance personnel were reluctant to turn in excess
materiel because they believed it was better to keep the excess materiel for
anticipated future needs, thus eliminating long lead times. Maintenance
personnel believed that they were saving the customers money by not turning
the materiel in; however, the materiel was not recorded on any accountable
records and was not visible to item managers to satisfy other known
requirements. The materiel was left in locations without being inventoried.
Maintenance personnel also wanted to avoid the fees being charged to dispose of
the materiel because credit was not given for some of the materiel turned in.
Instead, maintenance personnel were creating excess materiel on hand because
for each job all the materiel was ordered without consideration to any materiel
already on hand.

Accuracy of Inventory. The inventory records for accountability and control
of materiel stored in ASRS at Corpus Christi were inaccurate. For our physical
inventory, we statistically selected 375 locations from a universe of
20,724 locations to determine if quantities that were on hand matched those
quantities identified in the ASRS records. We compared the balance shown on
the ASRS record with a physical count of items stored in ASRS.

The inventory records and our physical count showed count errors in about
9.8 percent of the storage locations. By applying statistical weighting to the
sample, we calculated that the number of errors in the universe of
20,724 locations to be about 2,027 (9.8 percent). An estimated total of
1,466 of the locations were overstated (ASRS records showed more than the
physical count) and an estimated total of 795 locations were understated (ASRS
records showed less than the physical count).

Reconciling the ASRS and the MSFS. Corpus Christi did not properly
perform a reconciliation of the ASRS files with MSFS files to ensure the
accuracy of ASRS storage records. The IOC ASRS policy memorandum states

                                    8
    that to enhance the control of materiel stored in ASRS, a reconciliation between
    the ASRS and MSFS files is required and adjustments should be properly made
    to correct any variances. Reconciliation between the two files should be
    performed at a minimum of once each month.

    We were advised that the reconciliations were being performed; however, when
    ASRS files did not match the MSFS files, the physical inventories of materiel
    stored in an ASRS location were not being performed as required. Corpus
    Christi personnel used an alternative method for bringing the files into balance.
    If materiel was shown on ASRS files and not on the MSFS files, the materiel
    was added to the MSFS files. Conversely, if materiel was shown on the MSFS
    files and not on the ASRS files, the materiel was deleted from the MSFS files.
    If variances are found between the ASRS file and the MSFS file, a physical
    inventory of the storage location should be performed to determine the reason
    for the imbalance. Personnel within the maintenance directorate should not rely
    solely on computer-processed reports, then arbitrarily correct the errors to bring
    the reports in balance.


Management Oversight of Materiel
    AMCOM has not exercised its duties as the office of primary responsibility for
    management of maintenance materiel at Corpus Christi or required Corpus
    Christi to submit reports for management review.

    DoD and Army Regulations. DoD and Army Regulations collectively require
    that maintenance depots maintain quantitative balance records, account for
    materiel on formal records from the time of acquisition until the ultimate
    consumption or disposal of the property occurs, conduct annual physical
    inventories, and take appropriate actions to ensure that the on-hand quantity and
    total item property records agree. Those requirements were issued to ensure the
    care and safeguarding of materiel.

    Industrial Operations Command Policy. The IOC ASRS policy memorandum
    requires maintenance depots to perform a reconciliation between ASRS and
    MSFS files and annual physical inventories of materiel stored in ASRS. In
    addition, to ensure adequate oversight regarding the management of ASRS, the
    IOC ASRS policy memorandum requires that the following reports be provided
    for management review:

           •   A monthly total dollar roll up for materiel stored in ASRS.

           •   Items stored in ASRS with no demand in the last 180 days.

           •   Materiel stored in ASRS against closed PCNs.

           •   Materiel stored against overhead PCNs.

           •   Potential excess materiel by PCN.


                                        9
    Aviation and Missile Command. On October 1, 1999, the IOC transferred full
    command and control of Corpus Christi to AMCOM. However, since
    October 1999, AMCOM has not been actively involved in management of the
    maintenance materiel at Corpus Christi or required Corpus Christi to submit
    reports regarding management of maintenance materiel for AMCOM review.
    We do not believe that AMCOM has adequately exercised its duties as the office
    of primary responsibility for Corpus Christi.

    Reporting Requirements. Corpus Christi was not reporting the results of
    reconciliation reviews to higher-level management because such reviews were
    not requested. The IOC ASRS policy memorandum requires that depots submit
    quarterly reports concerning management of the ASRS inventories. We were
    advised that quarterly reports were no longer being prepared because AMCOM
    did not require them. Nevertheless, quarterly reports should be required so that
    the office of primary responsibility can monitor inventory levels and ensure
    accountability and control of materiel.


Monetary Benefits
    The audit identified about $432 million of inventory on hand in ASRS records.
    Of that amount, we estimated that about $83 million was above the approved
    60-day level, and therefore, excess to requirements and invisible to the
    wholesale supply system. Additionally, the audit identified about $7 million of
    materiel stored in work centers on the maintenance shop floors. The materiel is
    considered excess materiel because it was not identified to any project or visible
    to the wholesale supply system. The full extent of the materiel stored in work
    centers is unknown. Excess materiel should be identified and made available to
    inventory managers for redistribution for other known requirements.

Conclusion
    Corpus Christi did not comply with Army guidance relating to the storage of
    maintenance materiel in ASRS and materiel stored in work centers on
    maintenance shop floors and did not effectively manage the materiel. As a
    result, the depot had at least $90 million of materiel in excess of the authorized
    60-day storage level, some held as long as 4 years. Also, inventory records at
    Corpus Christi had count errors in about 9.8 percent of the storage locations.
    Materiel stored for long periods may become lost, obsolete, stolen, or
    unserviceable. Because the materiel stored in ASRS and in work centers on
    maintenance shop floors is considered consumed, the materiel loses visibility
    and is not available to the supply system item managers to meet other
    requirements.

    A lack of accountability and control of materiel at maintenance depots is an
    ongoing problem at Corpus Christi. The Army Audit Agency first reported the
    condition in 1989. The Inspector General of the Department of Defense
    reported a similar condition in 1994. Our audit revealed that the problem
    continues to exist. We believe that effective management of maintenance

                                        10
    materiel requires, at a minimum, that Corpus Christi perform annual physical
    inventories, reconcile ASRS and MSFS records, and prepare quarterly reviews
    of inventory levels. Further, we believe that AMCOM should take an active
    role in monitoring the management of materiel at Corpus Christi.


Recommendations
    1. We recommend that the Commander, Aviation and Missile Command direct
    the Corpus Christi Army Depot to comply with Army guidance regarding the
    storage of maintenance materiel at the depot and the preparation and submission
    of management reports for review.

    2. We recommend that the Commander, Corpus Christi Army Depot
    immediately:

           a. Price the materiel stored in the Automated Storage and Retrieval
    System that has no extended dollar value or that has been added to the physical
    inventory, and identify the value of inventory excess to prevailing requirements.

            b. Inventory materiel stored in work centers on the maintenance shop
    floors, record the materiel on accountable records, identify the materiel for
    which a valid need exists, and turn in or transfer to other programs excess
    materiel.

           c. Perform an annual physical inventory of all of the materiel stored in
    the Automated Storage and Retrieval System.

            d. Perform the required quarterly reviews of materiel stored in the
    Automated Storage and Retrieval System to determine if valid requirements
    exist for the stored materiel.

          e. Review projects at the 50-percent, 75-percent, and 90-percent
    completion stages to determine if a need exists for materiel in storage.

           f. Perform a reconciliation between the Automated Storage and
    Retrieval System and Maintenance Shop Floor System files, at a minimum
    monthly, to determine if files are accurate. A physical inventory should be
    performed to correct any deficiencies.

           g. Prepare and submit the following reports to management for review:

                (1) A monthly total dollar value for materiel stored in the
    Automated Storage and Retrieval System.

                (2) Items stored in the Automated Storage and Retrieval System
    with no demand in the last 180 days.

                 (3) Materiel stored in the Automated Storage and Retrieval
    System against closed program control numbers.

                                       11
                 (4) Materiel stored against overhead program control numbers.

                 (5) Potential excess materiel by program control number.


Management Comments Required
    The Army did not comment on a draft of this report. We request that the
    Commander, Aviation and Missile Command and the Commander, Corpus
    Christi Army Depot provide comments on the final report.




                                     12
Appendix A. Audit Process

Scope and Methodology
    We performed the audit at the Corpus Christi Army Depot. We contacted the
    Army Materiel Command, the AMCOM, and the Defense Logistics Agency.
    We concentrated on accountability and control of repair parts and consumable
    materiel. Our audit covered inventory records as of October 10, 2001. At the
    time of our audit, Corpus Christi reported in the ASRS a total inventory balance
    of about $432 million.

    We reviewed the DoD and Army regulations concerning policies,
    responsibilities, and procedures for managing repair parts and consumable
    materiel at the depot maintenance facility. To determine if repair parts and
    consumable materiel were accurately accounted for and controlled on depot
    property records, we inventoried materiel stored in the ASRS and in work
    centers on the maintenance shop floor. We also determined if annual
    inventories and quarterly reviews were performed and if management reports
    were prepared. We used the most recent records available for performing the
    inventories. For materiel stored in ASRS, we statistically selected 375 of
    20,724 sample locations for review. For materiel stored in work centers on the
    maintenance shop floor, we judgmentally selected three work centers for
    review. We determined unit prices by using the Defense Logistics Information
    Service FED LOG dated November 1, 2000, and inventory records as of
    October 10, 2001.

    We reviewed FY 1999, FY 2000, and FY 2001 management control
    certifications, required by the Federal Managers’ Financial Integrity Act, that
    the depot submitted. We reviewed the certifications to determine if responsible
    managers were identifying and reporting material weaknesses regarding
    accounting for and controlling maintenance materiel in the annual management
    control certifications. We also followed up on implementation of
    recommendations from prior audit reports.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objective and goal.

           •   Logistics Functional Area. Objective: Streamline logistics
               infrastructure. Goal: Implement most successful business practices
               (resulting in reductions of minimally required inventory levels).
               (LOG-3.1)

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the Defense Inventory
    Management high-risk area.


                                       13
Use of Computer-Processed Data. We relied on computer-processed data
from the ASRS and the MSFS for determining the accuracy of inventory
records. Our review of system controls and the results of data tests showed an
error rate that casts doubt on the data’s validity. Further, we believe that the
monetary valuation of materiel was understated because a significant amount of
materiel stored in ASRS had no extended dollar value. However, when the data
are reviewed in context with other available evidence, we believe that the
opinion, conclusions, and recommendations in this report are valid.

Sample Design. The ASRS has three general types of storage: unit-load
(medium-sized), mini-load (small-sized), and oversize (large-sized). We used a
stratified random sample design and selected simple random samples of
locations reported as of October 10, 2001, within each type of storage, as listed
below:


                  Table A-1.   Population and Sampling

         Type          Locations in    Locations in          Retrieval
        Storage          System          Sample               Mode

      Unit-load           11,160             125            Automated
      Mini-load            9,023             125            Automated
      Oversize               541             125         Warehouse worker

         Total           20,724               375

Sample Results. The following table reports projections that are based on our
sample data. When ASRS reported a location as empty, but we found materiel
stored there, we treated that location as “understated.” The sample results are
as follows:

                         Table A-2.        Projections

                                             Point           Lower       Upper
            Projection                      Estimate         Bound       Bound

 Overstated (Audit < System)          1,466 (7.1%)             685       2,246
 Understated (Audit > System)           795 (3.8%)             187       1,403
 Locations with Materiel
   Misstated (Over and Under)         2,027 (9.8%)           1,155       2,900
 Locations with Prices Missing        5,547 (26.8%)          4,279       6,815


Because three independent groups of statistical projections are present
(overstated values/locations, understated values/locations, and locations/records
with no price data), we included the Bonferroni effect in the projections by
adjusting the confidence level. We have used a 96.5-percent confidence level in



                                      14
    computing the individual bounds on errors for the above projections, which
    translates into an effective 90-percent overall confidence level for three
    independent groups of statistical projections.

    Use of Technical Assistance. Statisticians from the Analysis, Planning, and
    Technical Support Directorate, Quantitative Methods Division, Office of the
    Inspector General of the Department of Defense provided assistance in
    designing a random statistical sampling plan for performing a physical inventory
    and evaluating the results of the physical inventory.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from July 2001 to January 2002 in accordance with generally
    accepted government auditing standards. We included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. At Corpus
    Christi, we reviewed the adequacy of management controls regarding storage
    and disposition of maintenance materiel at the depot. We also reviewed the
    results of management self-evaluation of those management controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for Corpus Christi as defined by DoD Directive 5010.40.
    Corpus Christi management controls for managing depot maintenance materiel
    were not adequate because managers stored for long periods materiel not needed
    for requirements. Also, annual physical inventories were not performed as
    required. Additionally, quarterly reviews to determine if materiel was needed
    were not performed, especially for materiel stored for long periods.
    Recommendations 1. and 2., if implemented, will improve management of
    materiel. A copy of the report will be provided to senior officials responsible
    for management controls within the Army.




                                       15
       Adequacy of Management’s Self-Evaluation. Corpus Christi officials did not
       identify management of maintenance materiel as an assessable unit, and
       therefore, did not identify or report the material management control
       weaknesses identified by this audit.


Prior Coverage
       During the last 5 years, the Inspector General of the Department of Defense has
       issued two reports that discuss management of repair parts for maintenance.
       The Army Audit Agency has also issued one report that discusses management
       of repair parts for maintenance. In addition, one Inspector General of the
       Department of Defense report and one Army Audit Agency report were more
       than 5 years old. Those reports discuss the use of the ASRS.

Inspector General of the Department of Defense (IG DoD)
       IG DoD Audit Report No. D-2002-003, “Accountability and Control of
       Materiel at the Tobyhanna Army Depot,” October 4, 2001

       IG DoD Audit Report No. D-2001-186, “Accountability and Control of
       Materiel at the Tobyhanna Army Depot – Stockage of Communications-
       Electronics Materiel,” September 21, 2001

       IG DoD Audit Report No. 94-117, “Accountability and Control of Materiels at
       Army Depots,” June 3, 1994

Army
       Army Audit Agency, Audit Report No. AA 97-161, “Management of Repair
       Parts for Maintenance,” March 17, 1997

       Army Audit Agency, Audit Report No. NE 89-6, “Depot Automated Storage
       and Retrieval System,” March 24, 1989




                                          16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Undersecretary of Defense (Maintenance Policy, Programs, and
        Resources)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Under Secretary of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff (Logistics)
Commander, Army Materiel Command
Commander, Aviation and Missile Command
Commander, Corpus Christi Army Depot
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          17
Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
 Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
 Relations, Committee on Government Reform




                                         18
AUDIT TEAM MEMBERS
The Readiness and Logistics Support Directorate, Office of the Inspector General of the
Department of Defense, prepared this report. Personnel of the Office of the Inspector
General of the Department of Defense who contributed to the report are listed below.


Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Joseph M. Austin
Douglas P. Ickes
Celia J. Harrigan
Scott S. Cygan
Travis R. Schenck
Henry D. Barton
Dharam V. Jain
Sharon L. Carvalho
